■NOTH­
IN THE
SUPREME COURT OF THE UNITED STATES
MICHAEL S. BARTH,
PETITIONER,
filed

V.
BERNARDS TOWNSHIP PLANNING
BOARD, ETAL.,

JUl~ 15 2020
2£2ceofiheclerk

RESPONDENDTS.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE NEW JERSEY SUPREME COURT
PETITION FOR WRIT OF CERTIORARI
MICHAEL S. BARTH
P.O.BOX 832
FAR HILLS, NEW JERSEY 07931
(917) 628-6145
PETITIONER PRO SE

.* RECEIVED
JUL 22 2020
§UPREEMEFCTOURTLnfiK

QUESTIONS PRESENTED
While there are a number of questions and sub­
questions in this matter, the overarching question is
whether the unconstitutional process of the court
below should result in a temporary injunction and or
remand back to the New Jersey Supreme Court to
ensure United States Constitutional Due Process
and Equal Protection is followed?
PARTIES TO THE PROCEEDING
Petitioner Michael S. Barth owns property in
Bernards Township, Somerset County, New Jersey,
and lives within one mile of the subject property at
issue.
Respondent Bernards Township Planning Board is
an agency of Bernards Township and has authority
to approve site plan applications.
Respondent Islamic Society of Basking Ridge, Inc. is
building a community center at 124 Church Street,
Bernards Township, New Jersey.

ii

TABLE OF CONTENTS
Page
Questions Presented

1

Parties to the Proceeding

1

m

Table of Authorities
Petition for Writ of Certiorari

1

Opinions Below

1

Jurisdiction

2

Relevant Constitutional and Statutory Provisions. . 2
Statement of the Case

2

Reasons for Granting the Writ

4

Conclusion

5
APPENDIX

Supreme Court of New Jersey Order 2/20/20

al

Supreme Court of New Jersey Order 5/24/19

a2

New Jersey Appellate Division Order 7/30/19 ... . a3
New Jersey Appellate Division Orders 6/12/19.... a4
New Jersey Appellate Division Order 2/8/19

a6

iii

New Jersey Appellate Division Order 11/19/18 ... a7
Plaza v. Bernards Township Planning Board,
2018 WL 3637515 D.N.J 7/31/2018)............

a3

Petition for Certification (NJSC 9/27/19)

all

Appendix for Injunction (NJSC 8/29/19)

a24

TABLE OF AUTHORITIES
Fourteenth Amendment of U.S. Constitution ... 2, 5
Barth v. Islamic Society of Basking Ridge, S. Ct. No.
16-1250, rehearing denied August 25, 2017 . .2-3, 5, 7
Barth v. Township of Bernards, S. Ct. No. 19-806,
certiorari denied, March 2, 2020........................... 2-3
Cherokee LCP Land, LLC v. City of Linden
Planning Board, 234 N.J. 403 (2018)..........

5

Dunbar Homes, Inc. v. Zoning Board of Adjustment
of Township of Franklin, 233 N.J. 5456 (2018).... 4
In Re Accutane Litigation, 234 N.J. 340 (2018).... 4
Lomax v. Ortiz-Marquez, 590 U.S. _ 18-8369 (2020).6
Montclair State University v. Countv of Passaic.
234 N.J. 434 (2018)
Piscitelli v. City of Garfield Zoning Board of
Adjustment, 223 N.J. 246 (2019)..................

4
4,6

iv

Plaza v. Bernards Township Planning Board,
2018 WL 3637515 (D.N.J 7/31/2018)........
Quick v. Township of Bernards, D.N.J.
3:16-cv005595-MAS-LHG....................

1-2
2

Smith v. Twp. of Bernards, No., 17-4551,
2017 WL 5892202 (D.N.J. Nov. 29, 2017)............
3
Whispering Woods at Bamm Hollow, Inc. v.
Middletown Tp. Planning Board, 223 N.J. Super.
1, (NJAD 1987) cert denied 110 N.J. 175 (1988)... .4
28 U.S. Code 1257

2

28 U.S. Code 1441

2

42 USC 2000 cc et seq. Religion Land Use and
Institutionalized Persons Act.........................

8

United States Supreme Court Rule 23

1

1

PETITION FOR A WRIT OF CERTIORARI
Petitioner Michael S. Barth respectfully submits this
petition for a Writ of Certiorari to the Supreme
Court of New Jersey.
OPINIONS BELOW
The February 20, 2020 Order of the Supreme Court
of New Jersey denying certiorari (App., infra Al).
(Postmarked February 25, 2020).
The May 24, 2019 Order of the Supreme Court of
New Jersey dismissing interlocutory appeal
[allegedly] as “moot.” (App., infra A2).
The July 30, 2019 Order of the New Jersey Appellate
Division Order (App., infra A3).
The June 12, 2019 Orders of the New Jersey
Appellate Division Orders (App., infra A4-5).
The February 8, 2019 Order of the New Jersey
Appellate Division (App., infra A6).
The November 19, 2018 Order of the New Jersey
Appellate Division Order (App., infra A7).
The July 31, 2018 unpublished opinion of the United
States District Court, D. New Jersey in Plaza v.
Bernards Township Planning Board, is found at 2018
WL 3637515. (App., infra A8-21).

2

JURISDICTION
The New Jersey Supreme Court entered judgment on
February 20, 2020. This Court’s jurisdiction rests on
28 U.S. Code §1257.
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Fourteenth Amendment of the United States
Constitution, 28 USC §1441, and U.S. Supreme
Court Rule 23.
STATEMENT OF THE CASE
Noting at the outset, it appears Chief Justice Rabner
of the New Jersey Supreme Court recused himself
from this case (App. Al) similar to it appears his
Honor recused himself from Barth v. Township of
Bernards. S. Ct. No. 19806, certiorari denied, March
9, 2020.
That recusal is no surprise to the extent the New
Jersey Court considered these related, based on the
timing of the New Jersey Court’s near simultaneous
action on both cases, and considering Bernards
initiated suit in Barth v. Township of Bernards {Id.),
at best as a nuisance suit to create a workload
burden for this case.
A “related” case Quick v. Township of Bernards.
D.N.J. 3:17-cv-05595-MAS-LGH, is currently in the
Discovery phase.

3

The Court may recall many of the underlying facts
and procedures from ISBR’s racist and
unconstitutional subpoena attempt in Barth v. The
Islamic Society of Basking Ridge. S. Ct. No. 16-1250,
rehearing denied August 25, 2017.
Based on Plaza v. Bernards Township Planning
Board. 2018 WL 3637515 (D.N.J. 7/31/2015),
Respondents would not be prejudiced by a temporary
Injunction under Supreme Court Rule 23 pending
certiorari, since the defendants attempted to “burn
up the calendar” in this case through the removal
process in Plaza, as their basically identical claims
there were already rejected in Smith v. Two, of
Bernards. No. 17-4551, 2017 WL 5892202 (D.N.J.
Nov. 29, 2017).
The state courts’ reliance below on Plaza for
preclusive effect, and the failure to provide even
basic constitutional due process on appeal to answer
the questions below, is clearly an unconstitutional
due process and equal protection violation. Questions
raised below included: (See App., A28-29.)
1. Did the ACMS “go fish” service of process violate
federal and New Jersey constitutional
protections?
2. Is “5 minute” notice of oral arguments adequate
when parties were previously notified there would
be no oral arguments?
3. Is a trial court Judge that signs an Order and not
read his own supporting opinion, prima facie
evidence of judge bias, and nulls and voids the
judge’s Order?
4. Did the Appellate Division abuse its discretion to
facilitate Defendants’ Motion to Dismiss?

4

5. When the Appellate Division dismissal of
plaintiff s appeal was based on plain legal error,
and the Division refused to provide a reason for
dismissing plaintiffs appeal; is the Division’s
refusal to reinstate the appeal an unlawful abuse
of discretion under other New Jersey case law?
6. Under Piscitelli v. City of Garfield Zoning Board
of Adjustment. 237 N.J. 333 (2019), is the
conflicted planning board decision below null and
void or warrants additional discovery?
7. Is the Order Granting ISBR Motion to Dismiss for
Failure to State a Claim, defective?
8. Under Montclair State University v. County of
Passaic. 234 N.J. 434 (2018), a local municipal
planning board must consider the traffic safety
impact of a land use application on an adjoining
road, even if that roadway is a “county road”, and
if not, the MLUL is unconstitutional?
9. Under Piscitelli. Dunbar and In Re Accutane, the
current interpretation Whispering Woods at
Bamm Hollow. Inc, v. Middletown To. Planning
Board. 223 N.J. Super. 1, (NJAD 1987) cert
denied 110 N.J. 175 (1988) needs to be revisited
by the New Jersey Supreme Court because it is
being unconstitutionally applied, and
alternatively, the NJ MLUL is unconstitutional if
a “Whispering Woods” hearing can circumvent
the principles in the statute?
10. Under Dunbar Homes. Inc, v. Zoning Board of
Adjustment of Township of Franklin. 233 N.J.
5456 (2018), is a planning board approval of a
sham land use application null and void, and if
not, is the NJ MLUL unconstitutional?
11. Under In Re Accutane Litigation. 234 N.J. 340
(2018), is a planning board approval of a land use

5

application that was based on incompetent
testimony, null and void, and if not, is the MLUL
unconstitutional?
12. Under Cherokee LCP Land. LLC v. City of
Linden Planning Board. 234 N.J. 403 (2018), does
a township resident similarly situated to plaintiff
have standing in the instant matter?
REASONS FOR GRANTING THE WRIT
The lack of a basis for the state court Orders below is
repugnant to the Fourteenth Amendment of the
United States Constitution, and is inconsistent with
the Court’s precedent of basic jurisprudence. To deny
this petition for certiorari, and to deny this request
for an injunction pending certiorari, is to reward
wrongdoers.
In addition to lacking the most basic due process
below, the trial court’s “multiple drafts” (it being
obvious that the Judge never read before issuing),
incorrectly relied for preclusive effect in the instant
matter, on Barth v. The Islamic Society of Basking
Ridge. S. Ct. No. 16-1250, rehearing denied August
26, 2017. (See also App. A 8-21.) As Chief Justice
Roberts previously stated, denied “intervention” does
not translate to an inability of the “intervenor” to
subsequently file suit. (Citation omitted.)
Ironically respondents asked the lower court to
dismiss this party’s appeal WITHOUT PREJUDICE
(See App. A44, line 29[Pa33]), so that when the
Appellate Court neglected to specify whether the
order was with or without prejudice, when the
opposing parties’ motion was made to dismiss

6

WITHOUT PREJUDICE, the court below
unconstitutionally abused its discretion in
dismissing this party’s appeal, based on this Court’s
reference to such equitable principles referenced in
Lomax v. Ortiz-Marauez. 590 U.S.__ (2020)
The New Jersey Supreme Court and Appellate Court
internal coordination was more than just selfserving; that is, coordinating a denial of a motion for
a stay pending the disposition of a dispositive case,
only to use its own denial of an appeal allegedly as
“moot”, as an end around to avoid the court having to
address its own administrative mismanagement.
That mismanagement included when for example the
Trial Court “go-fish” process for self-represented
party, provided no communication to this selfrepresented party that it issued any “Orders” or
“Updates” (App. A30); and perversion of justice, the
type that contravenes this Court’s recent decision on
party representation in United States v. SinenengSmith. 19-67 (S. Ct. May 7, 2020)
This Court has already recently addressed the
unconstitutional bias of a state court system (citation
omitted); where even the New Jersey Supreme Court
documented its own unconstitutional bias when for
example, it recorded New Jersey Supreme Court
Justice Solomon interaction with a presenter, that
Justice Solomon in effect gave counsel Miranda
warnings at Oral Arguments, because of the personal
family conflict of interest example counsel was
providing, when Justice Solomon also said” I was a
local councilman, you’ll never catch me talking.”
Piscitelli v. City of Garfield Zoning Board of

7

Adjustment 223 N.J. 246 (2019). (Transcripts 40
minutes into recording. Transcript omitted.)
This was also evident by the court’s own coordination
to rush to the “Court House Doors”.
This party filed an interlocutory appeal with the
New Jersey Supreme Court on February 20, 2019.
On May 20, 2019 opposing parties filed defective
papers in the Appellate Division to dismiss the
appeal (papers didn’t even include a motion) (App.
A4). However, the record shows the Motion to
dismiss WITHOUT PREJUDICE was filed on June
5, 2020 (App. A31.)
Unfortunately, one cannot give the lower courts the
benefit of the doubt when the New Jersey Supreme
Court dismissed the interlocutory appeal on May 24,
2020 (A2); in between the May 20 and June 5 dates
of opposing parties’ filings in the appellate division.
The court seemingly desperate to find an
unconstitutional excuse for the opposing parties,
relied on the wrong rule provided by the opposing
party. Sadly, opposing parties even referenced the
wrong Civil Procedure rule that the Appellate
Division, as plain legal error, incorrectly relied as
opposing parties’ opposition in rushing denying on
for a motion for reconsideration. (App. A31.)
As briefed in a matter previously before this court,
and as the appended brief and certification in the
New Jersey Supreme Court. See generally Barth v.
The Islamic Society of Basking Ridge {Id.) and App.
A8-A21. As those stated, this party became involved
in this subject matter after receiving a racist

8

unconstitutional subpoena from ISBR for attending a
municipal Planning Board meeting that reviewed
ISBR’s application to build a community center, that
ironically even ISBR admitted the property wasn’t
suited, and the planning board denied. Even as
Judge Shipp has stated, ISBR subsequently settling
a case under RLUIPA does not mean the land use
application is not subject to land use restrictions.
(Citation omitted.)
The New Jersey Superior Court violated
Constitutional and judicial norm from the outset as
bias is presumed when a judge issues his opinions
without reading them (see supra).
The trial court’s bias was further exemplified when
he further allowed his friend John Belardo testify
before the court at a pretrial conference, without
being sworn in and not subject to cross examination.
Appendix A28.
CONCLUSION
Accordingly, the Petition for Writ of Certiorari to the
New Jersey Supreme Court should be granted, and a
temporary injunction prohibiting further
construction at 124 Church Street, Bernards
Township should be issued pending the Court
resolution of this Petition for Certification.
Respectfully submitted,
Michael S. Barth
Petitioner Pro Se
July 10, 2020

